                                                              AUDIT




 U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND SPORT FISH
 RESTORATION PROGRAM GRANTS
 Awarded to the State of Idaho, Department of Fish and Game
 From July 1, 2010, Through June 30, 2012




Report No.: R-GR-FWS-0012-2013                                May 2014
               OFFICE OF
               INSPECTOR GENERAL
               U.S.DEPARTMENT OF THE INTERIOR


                                                                                           MAY 1 9 2014
Memorandum

To:            Daniel M. Ashe
               Director, U.S. Fish and Wildlife Service

From:


Subject:       Final Audit Report- U.S. Fish and Wildlife Service Wildlife and Sport Fish
               Restoration Program Grants Awarded to the State of Idaho, Department of Fish
               and Game, From July 1, 2010, Through June 30, 2012
               Report No. R-GR-FWS-0012-2013

        This report presents the results of our audit of costs claimed by the State of Idaho,
Department ofFish and Game (Department), under grants awarded by the U.S. Fish and Wildlife
Service (FWS). FWS provided the grants to the State under the Wildlife and Sport Fish
Restoration Program. The audit included claims totaling $52.6 million on 46 grants that were
open during the State fiscal years that ended June 30, 2011 , and June 30, 2012 (see Appendix 1).
The audit also covered the Department's compliance with applicable laws, regulations, and FWS
guidelines, including those related to the collection and use of hunting and fishing license
revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. The Department, however, was unable to support its in-kind match,
resulting in questioned costs of $564,627; did not identify and eliminate pass-through funds
when assessing indirect costs to Program grants; did not maintain adequate control over grant-
funded real property; and did not adequately support its license certification related to multiyear
licenses.

        We provided a draft report to FWS for a response. In this report, we summarize the
Department's and FWS Region 1's responses to our recommendations, as well as our comments
on their responses. We list the status of the recommendations in Appendix 3.

      Please provide us with a corrective action plan based on our recommendations by
August 13, 2014. The plan should provide information on actions taken or planned to address the
recommendations, as well as target dates and title(s) of the official(s) responsible for
implementation.




                         Office of Audits, Inspections, and Evaluations   I Lakewood, CO
       Please address your response to:

                      Charles Haman
                      Central Region Manager
                      Audits, Inspections, and Evaluations
                      U.S. Department of the Interior
                      Office of Inspector General
                      12345 West Alameda Parkway, Suite 300
                      Lakewood, CO 80228

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit, inspection, and evaluation reports issued; actions taken to
implement our recommendations; and recommendations that have not been implemented.

      If you have any questions regarding this report, please contact the audit team leader, Tim
Horsma, at 916-978-5668 or me at 303-236-92421.


cc:    Regional Director, Region 1, U.S. Fish and Wildlife Service




                                                2
Table of Contents
Introduction ............................................................................................................. 1
   Background .......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology........................................................................................................ 1
   Prior Audit Coverage ........................................................................................... 2
Results of Audit ...................................................................................................... 3
   Audit Summary ................................................................................................... 3
   Findings and Recommendations.......................................................................... 3
Appendix 1 .............................................................................................................. 9
Appendix 2 ............................................................................................................ 11
Appendix 3 ............................................................................................................ 12
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (Acts) 1 established the Wildlife and Sport Fish Restoration
Program (Program). Under the Program, the U.S. Fish and Wildlife Service
(FWS) provides grants to States to restore, conserve, manage, and enhance their
sport fish and wildlife resources. The Acts and Federal regulations contain
provisions and principles on eligible costs and allow FWS to reimburse States up
to 75 percent of the eligible costs incurred under the grants. The Acts also require
that hunting and fishing license revenues be used only for the administration of
the States’ fish and game agencies. Finally, Federal regulations and FWS
guidance require States to account for any income earned using grant funds.

Objectives
We conducted this audit to determine if the State of Idaho, Department of Fish
and Game (Department)—

       •    claimed the costs incurred under the Program grants in accordance with
            the Acts and related regulations, FWS guidelines, and grant agreements;
       •    used State hunting and fishing license revenues solely for fish and wildlife
            program activities; and
       •    reported and used program income in accordance with Federal regulations.

Scope
Audit work included claims totaling approximately $52.6 million on the 46 grants
open during the State fiscal years (SFYs) that ended June 30, 2011, and June 30,
2012 (see Appendix 1). We report only on those conditions that existed during
this audit period. We performed our audit at the Department’s headquarters in
Boise, ID, and visited three regional offices, two fish hatcheries, seven wildlife
management areas, a nature center, a wildlife laboratory, a fisheries research
office, and seven lakes and reservoirs (see Appendix 2). We performed this audit
to supplement—not replace—the audits required by the Single Audit Act
Amendments of 1996 and by Office of Management and Budget Circular A-133.

Methodology
We conducted this audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We tested records and
conducted auditing procedures as necessary under the circumstances. We believe


1
    16 U.S.C. §§ 669 and 777, as amended, respectively.




                                                                                      1
that the evidence obtained from our tests and procedures provides a reasonable
basis for our findings and conclusions based on our audit objectives.

Our tests and procedures included—

   •   examining the evidence that supports selected expenditures charged to the
       grants by the Department;
   •   reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income;
   •   interviewing Department employees to ensure that personnel costs charged
       to the grants were supportable;
   •   conducting site visits to inspect equipment and other property;
   •   determining whether the Department used hunting and fishing license
       revenues solely for the administration of fish and wildlife program
       activities; and
   •   determining whether the State passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor-
and license-fee accounting systems and tested their operation and reliability.
Based on the results of initial assessments, we assigned a level of risk to these
systems and selected a judgmental sample of transactions for testing. We did not
project the results of the tests to the total population of recorded transactions or
evaluate the economy, efficiency, or effectiveness of the Department’s operations.

We relied on computer-generated data for other direct costs and personnel costs to
the extent that we used these data to select Program costs for testing. Based on our
test results, we either accepted the data or performed additional testing. For other
direct costs, we took samples of costs and verified them against source
documents, such as purchase orders, invoices, receiving reports, and payment
documentation. For personnel costs, we selected Department employees who
charged time to Program grants and verified their hours against timesheets and
other supporting data.

Prior Audit Coverage
On January 26, 2009, we issued “Audit on U.S. Fish and Wildlife Service
Wildlife and Sport Fish Restoration Program Grants Awarded to the State of
Idaho, Department of Fish and Game, From July 1, 2005, Through June 30, 2007”
(Report No. R-GR-FWS-0006-2008). We followed up on all recommendations in
the report and found that the U.S. Department of the Interior, Office of the
Assistant Secretary for Policy, Management and Budget, considered all 13
recommendations resolved but not implemented.

We also reviewed single audit reports and comprehensive annual financial reports
for SFYs 2011 and 2012. None of these reports contained any findings that would
directly affect the Program grants.


                                                                                  2
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. We identified, however, the following conditions that resulted in our
findings, including questioned costs totaling $564,627.

    A. Questioned Costs—Unsupported In-Kind Match. The Department did
       not require both the lead and assistant hunter education program
       instructors to report and sign for their volunteer hours on a daily basis.

    B. Unsupported Indirect Costs. The Department had not identified and
       eliminated pass-through funds when assessing indirect costs to Program
       grants.

    C. Inadequate Control of Real Property. The Department had not
       reconciled its Program-funded real property records with those of FWS.

    D. Unsupported License Certification. The Department did not adequately
       support its license certification related to multiyear licenses.

Findings and Recommendations
A. Questioned Costs—Unsupported In-Kind Match: $564,627

Under the Program, States must use State-matching (non-Federal) funds to
cover at least 25 percent of costs incurred in performing projects under the
grants. Noncash, or in-kind, contributions may be used to meet the States’
matching share of costs, but as with costs claimed for reimbursement, States
must support the value of these contributions.
The State’s matching share of costs on its hunter education Program grants, W-
159-HS-39, W-159-HS-40, W-180-E-5, and W-180-E-6, is composed primarily of
in-kind contributions in the form of volunteer instructor hours. The Department
used volunteer instructor hours from hunter education classroom and range
instruction as an in-kind match for FWS hunter education program grants.

We found that while the Department requires only its lead instructors to record
and sign for their total class hours, it does not require either the lead or assistant
instructors to record and sign for their hours on a daily basis.

The Code of Federal Regulations (43 C.F.R. § 12.64 (b)(6)) outlines requirements
for matching or cost-sharing records and states that organizations should use the
same methods to support allocability of volunteer services as it does for regular
personnel costs.


                                                                                         3
As a result of not requiring volunteers to follow the same procedures used by
Department employees to certify time, the Department could not demonstrate that
it had satisfied its claimed 25 percent match requirement of $564,627 on these
four grants.

Recommendations

We recommend that FWS work with the Department to:

    1. Resolve the $564,627 of unsupported questioned costs on Program
       grants W-159-HS-39 ($455,796), W-159-HS-40 ($28,830),
       W-180-E-5 ($53,534), and W-180-E-6 ($26,667); and

    2. Revise the Department’s policy and procedure manual to require
       both lead and assistant volunteer instructors to certify their hours
       on a daily basis.


Department Response
Department officials stated that they believe they have the supporting
documentation for their in-kind contributions and will work with FWS to resolve
the questioned costs.

FWS Response
FWS regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendations resolved but not implemented (see Appendix
3).

B. Unsupported Indirect Costs

All departments or agencies planning to claim indirect costs under Federal awards
are required to prepare an indirect cost rate proposal and obtain a negotiated
indirect cost rate from their cognizant Federal agency. Indirect costs are charged
to Federal grants by applying a negotiated rate to a specific direct cost base. The
Department uses a direct cost base of total direct costs less capital expenditures
and pass-through funds. Although the Department used its negotiated rate and
correctly excluded capital expenditures from the direct cost base, it did not
identify and eliminate pass-through funds when assessing indirect costs to
Program grants.

Federal regulations (2 C.F.R. § 225, Appendix A, F.1.) state that indirect costs
should be distributed to benefited cost objectives on bases that will produce an


                                                                                   4
equitable result in consideration of relative benefits derived. By applying the
indirect cost rate to pass-through costs, the Department inequitably distributed its
indirect cost to non-benefiting cost objectives. Office of Management and Budget
Circular A-133 defines a pass-through entity as a non-Federal entity that provides
a Federal award to a subrecipient to carry out a Federal program. In addition, the
Interior Business Center, which negotiates the Department’s indirect cost rate,
defines pass-through funds as major subcontracts, payments to participants, and
subgrants that require minimal administrative effort.

According to Department officials, the Department believes that it does not have
any pass-through funds involved in its Program grants that require minimal
administrative effort. Based on our review, however, we believe the Department
included pass-through funds in its claim for grant reimbursement.

By not identifying and eliminating pass-through funds, the Department may have
charged excess indirect costs to Program grants.

 Recommendation

 We recommend that FWS work with the Department to define and identify
 the nature of pass-through funds included in its grants and preclude assessing
 indirect costs on such funds.


Department Response
Department officials stated that they believe the Department does not currently
have any pass-through funds that require minimal administrative effort and stated
that they will work with FWS to resolve the finding.

FWS Response
FWS regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendation resolved but not implemented (see Appendix
3).

C. Inadequate Control of Real Property

To ensure that real property acquired under Program grants continues to serve the
purpose for which it was acquired, the Department must ensure that its database
of real property acquired with Program grant funds is accurate and complete and
reconciles with land records maintained by FWS.

Federal regulations (50 C.F.R. § 80.90(f)) require that the Department maintain
control of all assets acquired under Program grants to ensure that the assets serve


                                                                                      5
the purpose for which they were acquired throughout their useful life. The
regulations (43 C.F.R. § 12.71 (c)) further require the grantee to request
disposition instructions from the awarding agency when real property is no longer
needed for the originally authorized purpose. In addition, 50 C.F.R. § 80.135
requires that when an agency allows a use of real property that interferes with its
authorized purpose, the agency must restore the property to its authorized purpose
or replace it with property of equal value at the current price and fish, wildlife,
and public-use benefits consistent with the original grant.

Although our prior audit report (Report No. R-GR-FWS-0006-2008) identified
the issue of inadequate control of real property, FWS and the Department agreed
that a reconciliation had not been completed.

Department officials stated that the Department began the reconciliation process
between Department and FWS records in October 2009 to address the prior audit
issue, which identified significant acreage differences, but the Department is
awaiting guidance from FWS. FWS officials stated that they need additional
resources to resolve this issue. Without reconciliation, neither the Department nor
FWS can ensure that lands acquired under the Program are being used for their
intended purposes.

For example, in May 2013, the Department informed FWS of an unauthorized
disposition (a 1978 exchange) and subsequent sale (in 2010) of grant-funded real
property related to grant F-36-L-6. In 1964, the Department acquired the 35-acre
Horseshoe Bend Mill Pond property, partially with grant funds. To address an
encroachment, in 1978, the Department, without FWS approval, exchanged 4.73
of these acres for a 6.4-acre parcel owned by the encroaching landowner (Gardena
Fishing Access Site). In July 2010, the Department sold the 6.4-acre parcel
without FWS approval to Boise County for $125,255.

We reported a similar condition in our prior audit report (No. R-GR-FWS-0006-
2008, Recommendation D). Therefore, we are repeating the applicable
recommendation from that report. Implementation of the repeat recommendation
will be tracked under the resolution process for the prior audit report.

Recommendation

Repeat Recommendation:

We recommend that FWS ensure that the Department reconciles its real
property records with those of FWS.

New Recommendation:

We recommend that FWS require the Department to certify that grant-
funded real property is being used for its intended purposes.


                                                                                  6
Department Response
Department officials concurred with the finding and recommendations.

FWS Response
FWS regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendations resolved but not implemented (see Appendix
3).

D. Unsupported License Certification

To ensure that the Department receives an equitable apportionment of Program
funds, the Department must certify the number of annual hunting and fishing
licenses purchased. FWS uses the Department’s certification data to apportion
Program funds to the Department.

Federal regulations (50 C.F.R. § 80.35(b)(1)) require that to include multiyear
licenses in its annual certifications, the Department must receive net revenue from
a multiyear license that is in close approximation to the net revenue received for
an annual license each year during the license period.

Our review determined that the Department included multiyear license holders in
its 2012 certification data without verifying whether it had received sufficient net
revenues to validate the certification. Specifically, the Department had not
analyzed revenue received from individual, multiyear licenses to determine how
many years these licenses could be included in the certifications.

According to a Department official, the Department did not interpret the
regulations to require analysis of individual, multiyear license revenue streams to
support inclusion in the certifications. As a result, the Department may have
received excess apportionment of Program funds.

We reported this finding in our draft report and recommended that FWS and the
Department work to resolve the matter. We then discussed our concerns with
FWS officials. FWS acknowledged that—

       1) States have varying interpretations of multiyear license certification;
       2) Federal regulations (50 C.F.R. § 80.35(e)) requiring agencies to obtain
          FWS approval of their proposed technique to decide how many
          multiyear license holders remain alive in the certification period has
          not been implemented; and
       3) States needs additional Program guidance.




                                                                                   7
As such, we determined that a finding specific to the State of Idaho would be
inappropriate at this time, and we did not issue a formal recommendation in this
final audit report.

Department Response
Department officials stated that they believe their current license certification
process complies with Federal regulations.

FWS Response
After initially concurring with our finding and recommendation, FWS regional
officials recognized that these concerns pertain to a number of States and that
additional Program guidance is needed.

OIG Comments
Based on the Department’s and FWS’ responses and subsequent discussions, we
will address this issue in a management advisory to FWS suggesting it—

   •   review Program guidance and clarify requirements regarding multiyear
       licenses to ensure that individual license revenues are accounted for, either
       directly or through statistical modeling; and
   •   review of certification methodologies as required by 50 C.F.R. § 80.35(e),
       or revise the regulation to identify when such review would be required.




                                                                                    8
Appendix 1
                            State of Idaho
                    Department of Fish and Game
               Financial Summary of Review Coverage
                 July 1, 2010, Through June 30, 2012

  SFY 2011        FWS
  and 2012    Financial and    Total
                                           Claimed       Unsupported
   iFAIMS       Business       Grant
                                            Costs           Costs
    Grant     Management      Amount
  Number        Number
F-71-R-34     F10AF00005      $6,160,237    $5,512,558
F-71-R-35     F11AF00057       2,874,553     2,575,608
F-73-R-32     N/A              2,033,648     2,120,730
F-73-R-33     F11AF00058         967,404       968,632
F-75-R-25     F09AF00028         112,942       111,603
F-75-R-26     F11AF00342          56,464        54,687
F-76-D-26     F09AF00019       1,530,073     1,244,204
F-76-D-27     F11AF00343         729,047       711,555
F-77-B-25     F09AF00020       2,283,205     2,183,876
F-77-B-26     F11AF00148       1,123,535     1,120,791
F-81-D-20     N/A              1,564,179     1,661,207
F-81-D-21     F11AF00344         781,990       781,893
F-87-AE-12    F09AF00021       1,439,710     1,530,413
F-87-AE-13    F11AF00298         733,705       800,186
F-88-C-10     F09AF00032         667,523       432,367
F-88-C-11     F11AF00001         250,291       215,047
F-89-L-1      F08AF00001         375,000       237,005
F-92-D-2      F09AF00033         344,437       337,343
F-95-D-1      F09AF00013       1,593,465     1,392,832
F-96-E-1      F09AF00022          26,667        16,201
F-96-E-2      F11AF00299          13,333        13,152
F-97-D-1      F10AF00003         156,093       117,820
F-98-D-1      F10AF00010         278,000       151,437
F-99-R-1      F11AF00245          99,859           880
FW-7-T-16     F09AF00023       2,257,717     2,057,686
FW-7-T-17     F11AF00345       1,122,826     1,025,564
W-159-HS-39   F09AF00024       1,823,183     2,019,404       $455,796
W-159-HS-40   F11AF00310       1,962,532       225,193         28,830
W-160-R-37    F10AF00001       2,338,721     2,100,863
W-160-R-38    F11AF00059       1,149,524     1,040,756
W-168-C-27    N/A                176,319       201,886


                                                                   9
 SFY 2011        FWS
 and 2012    Financial and     Total
                                           Claimed      Unsupported
  iFAIMS       Business        Grant
                                            Costs          Costs
   Grant     Management       Amount
 Number        Number
W-168-C-28   F11AF00289         $115,827    $103,620
W-170-R-34   F10AF00006         5,696,093   5,217,795
W-170-R-35   F11AF00060         2,821,697   2,542,089
W-173-D-26   F09AF00036         6,368,500   5,941,102
W-173-D-27   F11AF00061         3,318,472   2,759,656
W-179-R-9    F10AF00002           796,795     684,135
W-179-R-10   F11AF00290           334,413     330,739
W-180-E-5    F09AF00025           213,333     230,060        $53,334
W-180-E-6    F11AF00272           106,667     104,546         26,667
W-181-L-1    F10AF00034         1,200,000   1,132,762
W-184-R-1    F11AF00255           152,535      86,848
W-185-D-1    F11AF00237           180,696      87,873
W-187-D-1    F11AF00266           200,000     203,485
W-188-R-1    F11AF00267           159,299     162,405
W-189-L-1    N/A                        0           0
Total                        $58,690,509 $52,550,494       $564,627




                                                                 10
Appendix 2
                    State of Idaho
             Department of Fish and Game
                     Sites Visited

                     Headquarters
                        Boise

                   Regional Offices
                  Magic Valley: Jerome
                  Southeast: Pocatello
                   Southwest: Nampa

                      Hatcheries
                      Hagerman
                       Nampa

              Wildlife Management Areas
                     Charcoal Creek
                       C.J. Strike
                    Cecil D. Andrus
             Camas Prairie Centennial Marsh
                       Hagerman
                    Niagara Springs
                        Sterling

                     Nature Center
             Morrison Knudsen Nature Center

                   Wildlife Bureau
               Wildlife Health Laboratory

                   Fisheries Bureau
                Nampa Fisheries Research

                 Lakes and Reservoirs
                    Caldwell Ponds
                    Camas Pond #1
                      Crane Falls
                  Edson Fichter Pond
                   Loveridge Bridge
                     Oster Lakes
                 Wilson Springs Ponds




                                              11
Appendix 3
                              State of Idaho
                      Department of Fish and Game
             Status of Audit Findings and Recommendations

Recommendations            Status                 Action Required
                                             Based on the FWS response,
                                               the corrective action plan
                                           should include specific action(s)
                       We consider the        taken or planned to address
                      recommendations      the recommendations, targeted
                       resolved but not    completion dates, title(s) of the
                         implemented.           official(s) responsible for
                                            implementing the action taken
                    FWS regional officials or planned, and verification that
  A.1, A.2, B, C     concurred with the        FWS headquarters officials
                          findings and         reviewed and approved of
                      recommendations      actions taken or planned by the
                      and will work with   Department. We will refer any
                    the Department on a               unimplemented
                       corrective action     recommendations by August
                              plan.            14, 2014, to the Assistant
                                                  Secretary for Policy,
                                              Management and Budget for
                                                implementation tracking.
                       We consider this
                       recommendation
                    (Recommendation D
                        from our prior
                      report, No. R-GR-
                       FWS-0006-2008)
                                            Provide documentation to the
                       resolved but not
                                            Assistant Secretary for Policy,
    C (Repeat            implemented.
                                                Management and Budget
 recommendation)
                                             regarding the implementation
                         The Assistant
                                                of this recommendation.
                     Secretary for Policy,
                       Management and
                    Budget considers this
                       recommendation
                       resolved but not
                         implemented.




                                                                          12
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
